Office of Material Loss Reviews
Report No. MLR-10-038


Material Loss Review of Benchmark Bank,
Aurora, Illinois




                                  June 2010
                                      Executive Summary

                                      Material Loss Review of Benchmark Bank,
                                      Aurora, Illinois
                                                                                      Report No. MLR-10-038
                                                                                                  June 2010

Why We Did The Audit
On December 4, 2009, the Illinois Department of Financial and Professional Regulation (IDFPR) closed
Benchmark Bank (Benchmark), Aurora, Illinois, and named the FDIC as receiver. On December 16, 2009,
the FDIC notified the Office of Inspector General (OIG) that Benchmark’s total assets at closing were
$193 million and that the estimated loss to the Deposit Insurance Fund (DIF) was $63 million. As of April
30, 2010, the estimated loss to the DIF had increased to $72 million. As required by section 38(k) of the
Federal Deposit Insurance (FDI) Act, the OIG conducted a material loss review of the failure.

The objectives were to (1) determine the causes of failure for Benchmark and the resulting material loss to
the DIF and (2) evaluate the FDIC’s supervision of Benchmark, including the FDIC’s implementation of the
Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.

Background
Benchmark was established in 1898 as Verona Exchange Bank, Verona, Illinois and became an insured state
nonmember bank on January 1, 1934. The bank assumed its current name on July 6, 2000 and moved its
headquarters to Aurora, Illinois. The bank was wholly-owned by Benchmark Bancorp, Aurora, Illinois, a
one-bank holding company. The stock of the holding company was widely held. In addition to its main
location, Benchmark operated four branches in St. Charles, Verona, Seneca, and Ransom, Illinois.

In 2000, Benchmark had nine members on its Board, eight of whom were newly elected. At that time, the
Board shifted the bank’s business strategy to emphasize commercial real estate (CRE), with a particular
focus on residential acquisition, development, and construction (ADC) lending. Benchmark relied
increasingly on Internet certificates of deposit (CDs), brokered deposits, and Federal Home Loan Bank
borrowings to fund its loan growth. Benchmark had significant turnover in its senior management; most
importantly, the bank had six changes in those individuals serving as president from 2004 to 2009 with three
individuals serving as president in 2006.

Audit Results
Causes of Failure and Material Loss

Benchmark failed because its Board and management pursued a strategy focused on CRE and residential
ADC lending and did not adequately manage the risks associated with the resulting CRE and ADC
concentrations. Management increasingly relied on non-core funding to fund the CRE and ADC loan
growth, especially brokered deposits and higher-cost Internet CDs. The risk management deficiencies, in
conjunction with the decline in the Chicago area real estate market in 2007, led to significant losses in the
loan portfolio, which depleted earnings and eroded capital. The Board was unsuccessful in its attempts to
raise adequate capital to sustain the bank’s operations, and the IDFPR closed Benchmark on December 4,
2009 due to lack of capital.

During the 2004-2009 timeframe, Benchmark was cited for various violations of law and contraventions of
supervisory policy. A senior bank official, also a member of the Board, played a key role in the day-to-day
operations of the bank, including the origination of Board-approved, high-dollar CRE and ADC loans, many
of which were later adversely classified.




                                    To view the full report, go to www.fdicig.gov
   Executive Summary
                                       Material Loss Review of Benchmark Bank,
                                       Aurora, Illinois,
                                                                                        Report No. MLR-10-038
                                                                                                    June 2010

The FDIC’s Supervision of Benchmark

The FDIC and the IDFPR conducted onsite risk management examinations of Benchmark consistent with
requirements. In addition, the FDIC monitored the bank’s condition through the use of various offsite
monitoring mechanisms. Beginning as early as 2004, examiners consistently reported that Benchmark had a
concentration in CRE and ADC lending. Examiners also included comments in examination reports
regarding the importance of risk diversification. However, examiners did not formally recommend that bank
management reduce concentrations or increase capital commensurate with the risks of the concentrations.
Further, examiners noted that the bank continued to increase its reliance on volatile deposits for its funding
base. From 2004 to 2007, examiners also identified concerns with the bank’s credit administration and/or
loan underwriting practices, but considered Benchmark’s overall financial condition to be satisfactory. The
financial impact of the weak practices and declining market became apparent at the 2008 examination, as
evidenced by the dramatic increase in adversely classified assets.

Although the IDFPR and the FDIC downgraded Benchmark’s ratings in 2008 and 2009 and pursued
enforcement actions to correct identified problems, these supervisory actions, and Benchmark’s efforts to
address them, were not successful in preventing the bank’s failure. The supervisory approach to Benchmark
was consistent with prevailing practices at the time for a bank with Benchmark’s risk profile. A lesson
learned, however, is that earlier and more formal supervisory actions to mitigate the risk associated with
CRE and ADC concentrations, increased reliance on non-core funding to support growth, and weak credit
administration and loan underwriting practices, may have been warranted. Such actions could have included
lowering key supervisory ratings in the 2004, 2007, and 2008 examinations; recommending formally that the
Board diversify the bank’s loan portfolio, or increase its capital levels commensurate with the concentration
risks, and submit progress reports on the bank’s diversification efforts to the FDIC and the IDFPR; and
conducting visitations and/or increased offsite monitoring between regularly scheduled examinations.

With respect to issues discussed in this report, the FDIC recently implemented procedures to better ensure
that examiner concerns and recommendations are appropriately tracked and addressed. The FDIC also
implemented new procedures to expedite the issuance of formal Cease and Desist orders under certain
circumstances. In regard to PCA, the FDIC properly implemented applicable provisions, including notifying
Benchmark of its capital position and associated requirements in a timely manner and monitoring the bank’s
compliance with those requirements.

Management Response

In its response, DSC reiterated the OIG’s conclusions regarding the causes of s failure and cited several
supervisory activities, discussed in the report, that were undertaken to address risks at the institution prior to
its failure. With regard to our assessment of the FDIC’s supervision, DSC stated that strong supervisory
attention is necessary for institutions with high CRE and ADC concentrations. In addition, DSC stated that
its updated guidance re-emphasizes the importance of robust credit risk-management practices for
institutions with concentrated CRE exposures and setting forth broad supervisory expectations. DSC also
stated that examination procedures have been implemented to ensure that material issues and
recommendations needing immediate consideration by the institution’s Board are appropriately tracked and
addressed.




                                    To view the full report, go to www.fdicig.gov
                                Contents
                                                                       Page
Background                                                               2

Causes of Failure and Material Loss                                      3
  Board and Management Oversight                                         3
  Concentrations in CRE and ADC Loans                                    4

The FDIC’s Supervision of Benchmark                                      6
   Supervisory History                                                   7
   Supervisory Response to Key Risks                                     8
   Implementation of PCA                                                13
   Supervisory Lessons Learned                                          14

Corporation Comments                                                    15

Appendices
  1. Objectives, Scope, and Methodology                                 16
  2. Glossary of Terms                                                  18
  3. Acronyms                                                           20
  4. Corporation Comments                                               21

Tables
   1. Financial Condition of Benchmark, 2004 to 2009                     2
   2. Benchmark’s ADC Concentrations Compared to Peer Group              5
   3. Benchmark’s CRE Concentrations Compared to Peer Group              5
   4. Onsite Examinations and Visitations of Benchmark, 2004 to 2009     7
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           June 15, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Benchmark Bank, Aurora, Illinois
                                                (Report No. MLR-10-038)

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Benchmark
Bank (Benchmark), Aurora, Illinois. The Illinois Department of Financial and
Professional Regulation (IDFPR) closed the institution on December 4, 2009, and named
the FDIC as receiver. On December 16, 2009, the FDIC notified the OIG that
Benchmark’s total assets at closing were $193 million and that the estimated loss to the
Deposit Insurance Fund (DIF) was $63 million. As of April 30, 2010, the estimated loss
to the DIF had increased to $72 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of
Benchmark’s failure and the resulting material loss to the DIF and (2) evaluate the
FDIC’s supervision2 of Benchmark, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act. This report presents our analysis of
Benchmark’s failure and the FDIC’s efforts to ensure that the Board of Directors (Board)
and management operated the institution in a safe and sound manner. The report does not
contain formal recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in our material loss reviews, we will
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
communicate those to FDIC management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
program and make recommendations as warranted.3 Appendix 1 contains details on our
objectives, scope, and methodology; Appendix 2 contains a glossary of terms; and
Appendix 3 contains a list of acronyms. Appendix 4 presents the Corporation’s
comments on our report.

Background
Benchmark was established in 1898 as Verona Exchange Bank and became an insured
state nonmember bank on January 1, 1934. The bank assumed its current name on July 6,
2000 and moved its headquarters to Aurora, Illinois. The bank was wholly-owned by
Benchmark Bancorp, Aurora, Illinois, a one-bank holding company. The stock of the
holding company was widely held. In addition to its main location, Benchmark operated
four branches in St. Charles, Verona, Seneca, and Ransom, Illinois.

In 2000, Benchmark had nine members on its Board, eight of whom were newly elected.
At this time, the Board shifted the bank’s business strategy to emphasize commercial real
estate (CRE), with a particular focus on residential acquisition, development, and
construction (ADC) lending. Benchmark relied increasingly on Internet certificates of
deposit (CDs), brokered deposits, and Federal Home Loan Bank borrowings to fund its
loan growth. Benchmark had significant turnover in its senior management; most
importantly, the bank had six changes in those individuals serving as president from 2004
to 2009 with three individuals serving as president in 2006.4

Table 1 provides details on Benchmark’s financial condition as of September 30, 2009
and for the 5 preceding calendar years.

Table 1: Financial Condition of Benchmark, 2004 to 2009
       Financial
    Measure ($000s)        Sep-09       Dec-08       Dec-07      Dec-06       Dec-05       Dec-04
      Total Assets         173,062      216,318      221,145     187,521      153,106     160,188
       Total Loans         128,241      160,124      171,120     141,743      112,971     124,549
     Total Deposits        182,760      198,366      195,019     166,180      133,712     135,634
    Brokered Deposits      18,247        26,238      15,909        8,806        462           0
    Net Income (Loss)      -35,521       -7,372        917          867        1,624        1,730
Source: Uniform Bank Performance Reports (UBPR) for Benchmark.




3
  For example, in May 2010, the FDIC OIG’s Office of Evaluations initiated a review of the role and
federal regulators’ use of the Prompt Regulatory Action provisions of the FDI Act (section 38, PCA and
section 39, Safety and Soundness Standards) in the banking crisis.
4
  One individual held the president position for part of 2006 and 2007, left, and returned to the position in
2009.



                                                       2
Benchmark Bancorp provided capital to support the bank’s growth, including a capital
injection of $2 million in 2004. However, as capital ratios continued to decline because
of large loan losses, Benchmark Bancorp was not able to provide additional support to
the bank.

Causes of Failure and Material Loss

Benchmark failed because its Board and management pursued a strategy focused on CRE
and ADC lending and did not adequately manage the risks associated with the resulting
CRE and ADC concentrations. Management increasingly relied on non-core funding to
fund the CRE and ADC loan growth, especially brokered deposits and higher-cost
Internet CDs. The risk management deficiencies, in conjunction with the decline in the
Chicago area real estate market in 2007, led to significant losses in the loan portfolio,
which depleted earnings and eroded capital. The Board was unsuccessful in its attempts
to raise adequate capital to sustain the bank’s operations, and the IDFPR closed
Benchmark on December 4, 2009 due to lack of capital.

A senior bank official, also a member of the Board, played a key role in the day-to-day
operations of the bank, including the origination of Board-approved, high-dollar CRE and
ADC loans, many of which were later adversely classified.

Board and Management Oversight

Benchmark’s Board pursued growth and focused on CRE and ADC loans without
establishing effective risk management practices commensurate with the risk level of the
resulting concentrations. For example, from 2004 to 2009, Benchmark was cited in
examination reports for deficient credit administration and/or loan underwriting practices,
particularly regarding its loan policy.4 Also indicative of the inadequate oversight was
the extent to which the bank was cited for apparent violations and contraventions of
policy. Specifically, from 2004 to 2009, Benchmark was cited for various violations of
laws and contraventions of statements of policy related to lending limits, appraisals, and
real estate lending standards. Further, the Board’s and management’s failure to pay close
attention to controls negatively impacted the bank’s ability to conduct insider activities in
a safe and sound manner. In that regard, the bank was cited at five consecutive
examinations for Regulation O violations pertaining to the extension of credit to
directors, officers, or principal shareholders of an institution.5


4
    The 2009 examination report was not issued in final prior to Benchmark’s closing.
5
  Part 215 of the Federal Reserve Board’s Regulation O was issued pursuant to Sections 22(g) and 22(h) of
the Federal Reserve Act. It requires that extensions of credit to executive officers, directors, principal
shareholders or their related interests be made on substantially the same terms and follow credit
underwriting procedures that are not less stringent than those prevailing at the time for comparable
transactions with persons not covered by the regulation. Aggregate lending limits and prior approval
requirements are also imposed by Regulation O. Section 337.3 of the FDIC Rules and Regulations makes
Regulation O applicable to state nonmember banks and sets forth requirements for approval of extensions
of credit to insiders.


                                                      3
A senior bank official and Board member played a key role in the day-to-day operations
of the bank, including the origination of high-dollar, Board-approved CRE and ADC
loans, many of which were later adversely classified. Further, our review of the bank’s
Director Loan Committee meeting minutes from 2005 to 2009 indicated that this senior
official received the Board’s approval for numerous high-dollar, unsecured loans, some
of which ranged from $1 million to over $2 million. The same senior official originated
numerous secured and unsecured loans to Board members. Although the FDIC did not
issue a final examination report for the 2009 examination, in a memorandum
documenting the results of that examination, examiners noted: (1) the same senior official
was involved in a number of “Questionable Insider Transactions” and (2) two of the
bank’s former Board members had loans totaling over $2 million classified as
substandard and $1 million classified as loss.

Concentrations in CRE and ADC Loans

Benchmark’s growth strategy led to concentrations in CRE and ADC lending, which
ultimately caused the bank’s failure. Benchmark experienced significant asset growth—
increasing from over $19 million at year end 1999 to over $216 million in 2008. To fund
the growth, Benchmark became increasingly reliant on non-core funding sources. For
example, brokered deposits went from zero in 2004 to over $26 million in 2008.

The FDIC, the Office of the Comptroller of the Currency, and the Board of Governors of
the Federal Reserve System, issued joint guidance in December 2006, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance). Although the Joint Guidance does not establish specific CRE lending
limits, it defines criteria to identify institutions potentially exposed to significant CRE
concentration risk. According to the guidance, an institution that has experienced rapid
growth in CRE lending, has notable exposure to a specific type of CRE, or is approaching
or exceeds the following supervisory criteria may be identified for further supervisory
analysis of the level and nature of its CRE concentration risk.

       •   Total reported loans for construction, land and development, and other land
           (i.e., ADC) representing 100 percent or more of total capital; or
       •   Total CRE loans representing 300 percent or more of total capital, where the
           outstanding balance of CRE has increased by 50 percent or more during the
           prior 36 months.

As shown in Table 2, Benchmark’s concentrations in ADC loans consistently exceeded
the criteria for identifying institutions that may warrant further supervisory analysis, once
the Joint Guidance took effect in December 2006. In addition, ADC loans as a percent of
the bank’s total capital and total loans were significantly above Benchmark’s peer group
averages from 2006 to 2008. Benchmark’s ADC loan portfolio increased from
approximately $37 million at December 31, 2004 to nearly $66 million at December 31,
2007. We did note, however, that Benchmark management was reducing its ADC loan
portfolio in latter years, to about $60 million at December 31, 2008 and approximately
$36 million at September 30, 2009.



                                              4
Table 2: Benchmark’s ADC Concentrations Compared to Peer Group
                            ADC Loans as a                                  ADC Loans as a
                         Percent of Total Capital                        Percent of Total Loans
Period                              Peer        Benchmark                        Peer      Benchmark
Ended           Benchmark                                       Benchmark
                                   Group         Percentile                     Group      Percentile
Dec 2004             227             81         Not Available       30            11          N/A
Dec 2005             166             91         Not Available       26            13          N/A
Dec 2006             290             101             94             38            14           94
Dec 2007             327             107             95             39            15           94
Dec 2008             423             97              98             37            13           96
Sep 2009            -149*            79             N/A             28            11           95
Source: UBPR data for Benchmark.
*Percentage is negative because of negative capital.


Benchmark’s CRE concentrations also exceeded the levels for institutions that may be
identified for further supervisory analysis, as shown in Table 3. In addition, CRE loans
as a percent of the bank’s total capital ranked above the bank’s peer group in 2007 and
2008 and total loans ranked above the bank’s peer group averages from 2007 to 2009 –
years in which the guidance was in effect. Benchmark’s CRE loan portfolio peaked at
$94.8 million as of December 31, 2007 and declined to $72.4 million as of September 30,
2009.


Table 3: Benchmark’s CRE Concentrations Compared to Peer Group*
                          CRE Loans as a                                  CRE Loans as a
                       Percent of Total Capital                        Percent of Total Loans
Period                          Peer      Benchmark                             Peer      Benchmark
Ended           Benchmark                                       Benchmark
                               Group       Percentile                          Group      Percentile
Dec 2004            376          323      Not Available             49           45          N/A
Dec 2005            304          332      Not Available             48           47          N/A
Dec 2006            424          335            68                  56           48           63
Dec 2007            420          218            89                  55           48           62
Dec 2008            580          215            98                  57           47           68
Sep 2009          -246**         202           N/A                  56           47           69
Source: UBPR data for Benchmark.
* For 2004-2006 the percentages for Benchmark and peers include owner-occupied CRE; for 2007-2009 the
percentages for Benchmark and peer exclude owner-occupied CRE loans.
**Percentage is negative because of negative capital.


Inadequate risk management practices, coupled with the decline in the Chicago area real
estate market in 2007, caused Benchmark’s CRE and ADC loan portfolios to deteriorate.
Specifically, at the 2004 examination, adversely classified assets increased from
8.51 percent of Tier 1 Capital plus the allowance for loan and lease losses (ALLL) to
over 500 percent at the 2009 examination. The past due and nonaccrual loans also
increased from 1.21 percent as a percentage of gross loans at the 2004 examination to
over 33 percent at the 2009 examination.

Recognition of significant loan losses subsequently depleted earnings and eroded capital.
The Board was unsuccessful in its attempts to raise the needed capital to sustain the


                                                       5
bank’s operations, and the IDFPR closed Benchmark on December 4, 2009 due to lack of
capital.


The FDIC’s Supervision of Benchmark

The FDIC and the IDFPR conducted onsite examinations of Benchmark consistent with
requirements.6 In addition, the FDIC monitored the bank’s condition through the use of
various offsite monitoring mechanisms. Beginning as early as 2004, examiners
consistently reported that Benchmark had CRE and ADC concentrations. Examiners also
included comments in examination reports regarding the importance of risk
diversification. However, examiners did not formally recommend that bank management
reduce concentrations or increase capital commensurate with the risk associated with
such concentrations.7 Further, examiners noted that the bank continued to increase its
reliance on volatile deposits for its funding base. In addition, from 2004 to 2007,
examiners identified concerns with the bank’s credit administration and/or loan
underwriting practices, but considered the bank’s overall financial condition satisfactory.
The financial impact of the weak practices and declining market became apparent at the
2008 examination, as evidenced by the dramatic increase in adversely classified assets.

Although the IDFPR and the FDIC downgraded Benchmark’s ratings in 2008 and 2009
and pursued enforcement actions to correct identified problems, these supervisory
actions, and Benchmark’s efforts to address them, were not successful in preventing the
bank’s failure. The supervisory approach to Benchmark was consistent with prevailing
practices at the time for a bank with Benchmark’s risk profile. A lesson learned,
however, is that earlier and more formal supervisory action to mitigate the risk associated
with CRE and ADC concentrations, increased reliance on non-core funding to support
growth, and weak credit administration and loan underwriting practices may have been
warranted. Such actions could have included (1) lowering key supervisory ratings8 in the
2004, 2007, and 2008 examinations; (2) recommending formally that the Board diversify
the bank’s loan portfolio or increase its capital levels commensurate with the
concentration risks and submit progress reports on the bank’s diversification efforts to the
FDIC and the IDFPR; and (3) conducting visitations and/or increased offsite monitoring
between regularly scheduled examinations.


6
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, onsite examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied. Benchmark met the conditions for the 18-month
examination cycle.
7
  A formal recommendation requires a response from bank management and follow-up by examiners.
8
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of
1 through 5, with 1 having the least regulatory concern and 5 having the greatest concern.



                                                      6
With respect to issues discussed in this report, the FDIC recently implemented
procedures to better ensure that examiner concerns and recommendations are
appropriately tracked and addressed. The FDIC also implemented new procedures to
expedite the issuance of formal Cease and Desist (C&D) orders under certain
circumstances.

Supervisory History

From 2004 to 2009, the FDIC and the IDFPR conducted five examinations of
Benchmark, alternating these examinations with the exception of the 2004 and 2009
examinations. In addition, prior to the final joint examination, the FDIC conducted a
visitation in June 2009. The FDIC and the IDFPR also pursued enforcement actions,
including a Bank Board Resolution (BBR) and a C&D. Table 4 summarizes key
supervisory information for these examinations and one visitation.

Table 4: Onsite Examinations and Visitations of Benchmark, 2004 to 2009
    Examination                          Supervisory        Contraventions
                                           Ratings              and/or
     Start Date           Agency           (UFIRS)            Violations*           Supervisory Action
        1/12/04             Joint          222322/2                9                        None
       07/25/05            IDFPR           112222/2                9                        None
       01/29/07             FDIC           222222/2                9                        None
        07/7/08            IDFPR           233322/3                9                      BBR***
                                                                                  Lowered composite rating
                          FDIC
       06/15/09                            554545/5         Not Applicable**       and initiated the C&D
                         Visitation
                                                                                        process.***
                                                                    9                  C&D process
       08/10/09             Joint          555555/5
                                                                                       continued.***
Source: The FDIC’s Virtual Supervisory Information on the Net and Reports of Examination (ROEs) for
Benchmark.
*Discussed earlier in the Cause of Failure Section.
**The scope of the visitation did not include reviewing the bank’s compliance with laws and regulations.
***Informal enforcement actions often take the form of Bank Board Resolutions (BBR) or Memorandum of
Understanding (MOU). Formal enforcement actions often take the form of C&D orders, but under severe
circumstances can also take the form of insurance termination proceedings. The C&D became effective on
October 25, 2009.

The FDIC’s offsite monitoring procedures generally consisted of contacting the
institution’s management from time to time to discuss current and emerging business
issues and using automated tools9 to help identify potential supervisory concerns. The
FDIC conducted offsite monitoring of Benchmark in 2008.

At the 2008 examination, examiners determined that the significant increase in adversely
classified assets was excessively high and contained an unacceptable and objectionable

9
  The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating (SCOR) system and the Growth Monitoring System
(GMS). Both tools use statistical techniques and Call Report data to identify potential risks, such as
institutions likely to receive a supervisory downgrade at the next examination or institutions experiencing
rapid growth and/or a funding structure highly dependent on non-core funding sources.


                                                      7
degree of risk; accordingly, examiners downgraded the asset quality and management
components and overall composite ratings each to a “3.” As a result, the Board agreed to
adopt a BBR on December 16, 2008, to address the concerns identified during the
examination. Subsequently, Benchmark was flagged for offsite review in September and
December 2008 because of the bank’s asset quality deterioration and high probability of a
composite downgrade. Although the bank’s risk was considered medium and increasing,
the FDIC did not contact bank management.

Based on the further decline in the bank’s condition at the June 2009 FDIC visitation, the
FDIC downgraded all CAMELS components to a “4” or a “5” and began pursuing a
C&D for unsafe and unsound banking practices. While still pursuing the C&D, the FDIC
and the IDFPR conducted a joint examination in August 2009 and found further
deterioration in the bank’s condition and assigned a “5” rating to all CAMELS
components. Notwithstanding the C&D, which became effective on October 25, 2009,
Benchmark failed less than 2 months later on December 4, 2009.

Ultimately, these supervisory actions, and Benchmark’s efforts to address them, were not
successful in preventing the bank’s failure. Earlier and more formal supervisory action
may have been prudent to mitigate the risk associated with the CRE and ADC
concentrations, inadequate credit administration and loan underwriting practices, and
increased reliance on non-core funding to support growth.


Supervisory Response to Key Risks

Historically, Benchmark was considered a well-performing institution and consistently
received composite “2” supervisory ratings from 2004 to 2007. Examiners identified key
risks and made recommendations to Benchmark’s management to address certain ones at
each examination. However, regulators did not require management to submit formal
responses to the recommendations. As a result, examiners did not follow up to determine
what actions the bank took to address the problems until the next regularly scheduled
examination. In retrospect, more aggressive supervisory action at earlier examinations
and additional offsite monitoring may have been prudent given the risks in Benchmark’s
loan portfolio, reliance on non-core funding, and managerial weaknesses.

January 2004 Examination

Examiners concluded that the bank’s overall condition was satisfactory and assigned the
bank a composite “2” rating, which indicated that only moderate weaknesses were
present and well within the Board’s and management’s capabilities and willingness to
correct. Given the concerns noted at the examination, however, the assigned
management and capital component ratings of “2” did not reflect the increasing risks in
the bank’s loan portfolio or overall risk management practices that warranted greater




                                            8
concern. Specifically:

       •   Earnings remained weak.10
       •   ADC concentrations represented 331 percent of Tier 1 Capital.
       •   Benchmark continued to rely on Internet CDs to support its growth.
       •   Enhancements were needed to the appraisal review and credit analysis processes.
       •   Previously noted concerns with the bank’s audit program were not corrected and
           remained concerns.
       •   Lending violations were noted.

In addition, Benchmark remained Adequately Capitalized in 2004 for the third
consecutive year. According to the UFIRS capital definition, the types and quantity of
risk inherent in an institution’s activities will determine the extent to which it may be
necessary to maintain capital at levels above the required regulatory minimums to
properly reflect the potentially adverse consequences that these risks may have on the
institution’s capital. Given the ADC concentrations and other risks at Benchmark at the
time, an Adequately Capitalized capital position may not have been sufficient to
withstand difficult market conditions.

Had the FDIC taken a more aggressive approach to the risks present at Benchmark and
established a stronger supervisory tenor at this examination, some of these issues may not
have been repeated at later examinations or their negative impact on the bank may have
been reduced when the economy declined.

July 2005 Examination

Examiners reported that the bank’s overall condition was satisfactory and noted
improvements in the bank’s earnings. The holding company’s capital injection of
$2 million in March 2004 had elevated the bank’s capital position to Well Capitalized.
Nevertheless, examiners again identified a continued concentration in CRE and ADC
loans and included comments in the examination report regarding the importance of risk
diversification. Examiners did make recommendations to improve the loan policy and
cited a lending violation.

January 2007 Examination

Examiners reported that the bank's financial condition remained satisfactory and assigned
it a composite rating of "2" and component ratings of "2" for asset quality and
management. According to UFIRS definitions, a composite “2” rating means that an
institution is fundamentally sound; a component “2” for asset quality indicates
satisfactory asset quality and credit administration practices; and a component 2 for
management indicates that management’s and the Board’s performance and risk
management practices are also satisfactory.


10
     Benchmark’s earnings component was rated either a “3” or a “4” from 1999 to 2004.


                                                     9
Given its increasing CRE and ADC concentrations, repeat findings related to credit
administration practices (asset quality), continued violations of laws and regulations and
contraventions of FDIC policy (management), and the above definitions, the composite,
asset quality, and management ratings did not appear to reflect the increasing risks in the
bank’s loan portfolio. Such risks included:

     •   Rapid Growth. Since the 2005 examination, the bank’s asset growth had gone
         from a negative 4.42 percent at year-end 2005 to approximately 12 percent at the
         end of the third quarter 2006, with increasing dependence on non-core funding.
         In that regard, brokered deposits increased from $462,000 at year-end 2005 to
         $8.7 million at the quarter ending September 30, 2006.11
     •   Increasing CRE and ADC Loan Concentrations. Since the 2005 examination,
         CRE concentration growth had changed from a negative 13 percent at year-end
         2005 to a positive 14 percent at the quarter ending September 30, 2006. During
         the same period of time, ADC concentration growth had changed from a negative
         22 percent to a positive 48 percent.
     •   Capital Ratios. Since the 2005 examination, the bank’s capital ratios had
         changed from an overall upward trend at year-end 2005 to an overall declining
         trend at the quarter ending September 30, 2006.
     •   Loan Policy. The bank’s loan policy needed significant enhancements
         commensurate with the bank’s lending practices. Examiners made
         recommendations related to repayment analysis, unsecured lending guidelines,
         loan-to-value limits and monitoring, file documentation, appraisal guidelines, and
         collateral inspections.
     •   ALLL. Enhancements were needed in the ALLL to ensure compliance with
         Generally Accepted Accounting Principles (GAAP),12 Financial Accounting
         Standard No. 5 Accounting for Contingencies, and No. 114 Accounting by
         Creditors for Impairment of a Loan.

Although the December 2006 CRE guidance had just been issued prior to this
examination, examiners did not formally recommend that bank management diversify its
loan portfolio and/or increase capital levels to mitigate the CRE and ADC concentration
risks. Further, the FDIC did not require a response from Benchmark’s Board in its
transmittal letter of the January 2007 examination results to the bank. In retrospect, a
stronger supervisory approach regarding examiner concerns, including (1) downgrading
the bank’s asset quality, management, and/or composite ratings; (2) requiring the bank to
submit a response to the concerns identified; and (3) following up on examiner
recommendations between examinations may have instilled more urgency in bank
management to address operational deficiencies and the risks inherent in the loan
portfolio.

11
  FDIC examiners used September 30, 2006 financial data for the January 29, 2007 examination.
12
  The policy provides key concepts and requirements pertaining to the ALLL included in GAAP and
existing supervisory guidance. It describes the nature and purpose of the ALLL; the responsibilities of
Boards, management, and examiners; factors to be considered in the estimation of the ALLL; and the
objectives and elements of an effective loan review system, including a sound loan grading system.



                                                    10
As part of its efforts to monitor institutions with CRE and ADC concentrations, the FDIC
contacted Benchmark’s management in June 2007 because of the risk associated with the
bank’s ADC loan concentration exceeding 100 percent of total capital. At that time, the
Chairman, Chief Executive Officer, and President stated that given the slowdown in the
residential real estate market, the bank planned to lower its volume of ADC lending as
part of its conservative and selective CRE loan philosophy. The FDIC did not take any
further action. Benchmark’s ADC loan portfolio subsequently increased from
$55 million at June 30, 2007 to nearly $66 million at year-end 2007.

July 2008 Examination

At the July 2008 IDFPR examination, examiners reported that the overall condition of the
bank was less than satisfactory and noted a dramatic increase in adversely classified
assets, from approximately 10 percent at the 2007 examination to approximately
55 percent. They reported that Board oversight and management were inadequate and
earnings were insufficient to support operations and augment capital. Examiners also
cited management for two violations and one contravention of statement of policy related
to lending limits. Further, examiners stated that the lack of oversight and compliance
with policy limits related to CRE concentrations was a concern.

Although examiners considered capital to be marginally adequate, the capital component
was assigned a “2” rating. At that time, examiners noted management’s desire to
maintain a Well Capitalized position in order to continue to use brokered deposits as a
funding source without regulatory restrictions. As a consequence, the bank increased its
use of brokered deposits to over $26 million by year-end 2008.

The IDPFR examiners downgraded the asset quality, management, and earnings
components, and the composite rating each to a “3,” given the serious decline in the
bank’s condition, and began pursuing a BBR. Benchmark’s Board adopted the BBR on
December 16, 2008. The BBR required Benchmark’s Board to:

   •   Submit a written plan to lessen the bank’s risk position for each classified asset.
   •   Refrain from lending or extending additional credit to any delinquent borrower.
   •   Require complete loan documentation, realistic repayment terms, and current
       financial information adequate to support the outstanding indebtedness of each
       borrower.
   •   Establish acceptable CRE limits and reduce any exposures that are above these
       limits.
   •   Correct violations and assure future compliance with the respective laws, rules,
       and regulations.
   •   Provide quarterly progress reports to the FDIC and the IDFPR.
   •   Maintain a Tier 1 Leverage Capital Ratio of 7.5 percent and a Total Risk-Based
       Capital Ratio of 10 percent.
   •   Limit growth of average total assets to no more than 2 percent during each
       calendar quarter.


                                            11
Despite the BBR, the bank’s risk profile continued to increase after the examination. For
example, the bank had:

     •   increased CRE and ADC concentrations as a result of declining capital;
     •   increased reliance on brokered deposits;
     •   negative net income; and
     •   declining capital, resulting in the bank being Undercapitalized as of December
         2008.

According to the FDIC’s Formal and Informal Action Procedures Manual, an MOU is
generally the preferred informal action for institutions that (1) receive a composite “3”
rating and (2) have deficiencies noted during the examination and a need for a more
structured program or specific terms to effect corrective action. While FDIC officials
believed that an MOU would have been more appropriate, they ultimately deferred to the
IDFPR’s pursuit of the BBR because it was not the FDIC’s examination. In addition,
further downgrades in key component ratings and the overall composite rating may have
been warranted at this examination given that examiners (1) deemed Board and
management performance inadequate, (2) reported deficient asset quality and credit
administration practices, and (3) identified repeat issues not being satisfactorily addressed
or resolved by the Board and management—all characteristics of a “4” rating in
management and asset quality, and the composite rating. Had there been further
downgrades and a formal action in the form of a C&D, management would have been
required to take immediate and decisive action to correct the bank’s serious deficiencies
and been put on notice that such action was necessary to avoid a potential failure.

June 2009 Visitation and August 2009 Examination

Based on the FDIC’s review of Benchmark’s March 31, 2009 Call Report data indicating
that Benchmark was Undercapitalized,13 the FDIC conducted a visitation in June 2009.
Examiners found that the bank’s financial condition had further deteriorated since the
2008 IDFPR examination, with asset quality deemed critically deficient. Adversely
classified assets and nonaccrual loans represented 295 percent and 176 percent of Tier 1
Capital plus the ALLL, respectively. Further, examiners stated that the bank’s capital
position had eroded to a critically deficient level and management’s performance was
unacceptable; consequently, examiners downgraded all CAMELS components to a “4” or
a “5,” and the FDIC began pursuing a C&D.

The FDIC and the IDFPR conducted a joint examination in August 2009 while the C&D
process was being initiated. The examination found further deterioration in Benchmark’s
condition, with adversely classified assets representing 512 percent of Tier 1 Capital plus
the ALLL and nonaccrual loans representing 33 percent of gross loans and leases. In
addition, capital and earnings were critically deficient and threatened the bank’s viability.

13
  As a result of the independent auditor’s review of Benchmark in early 2009, the bank had to resubmit its
Call Report data for December 31, 2008 to correctly state 2008 earnings, which resulted in lowering the
bank’s capital category to Undercapitalized.



                                                    12
Management’s performance, and the bank’s liquidity and funds management practices
were also deemed to be critically deficient. Accordingly, examiners downgraded all
CAMELS components to a “5.”

By the time the C&D was finalized and effective in October 2009, the bank’s failure was
likely, absent a large capital infusion. Benchmark’s management was unable to raise the
needed capital or find a buyer for the bank, and ultimately, the IDFPR closed the
institution for lack of capital.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-chartered nonmember banks that are not adequately
capitalized. In addition to including provisions on minimum capital requirements in the
C&D, the FDIC followed PCA guidance and appropriately notified the bank of its capital
position and corresponding requirements, as follows:

   •   On March 1, 2004, the FDIC notified Benchmark that it was Adequately
       Capitalized based on the December 31, 2003 Call Report data and advised the
       bank of brokered deposit restrictions. The holding company injected
       $2 million in capital in March 2004, elevating the bank’s capital position to Well
       Capitalized.

   •   On May 27, 2009, the FDIC notified Benchmark that it was Undercapitalized
       based on the March 31, 2009 Call Report data and the amended December 31,
       2008 Call Report data, that were both filed on April 28, 2009 and advised the
       Board and management that the bank was subject to restrictions on asset growth,
       acquisitions, new activities, new branches, dividends, other capital distributions,
       and management fees. The FDIC also reminded the bank that, as of
       April 28, 2009, it had become subject to mandatory requirements of section 38,
       including the submission of a capital restoration plan that was due on
       July 11, 2009. Benchmark filed a capital plan on June 16, 2009. However, on
       August 12, 2009, the FDIC deemed Benchmark’s PCA capital plan to be
       incomplete because it was too vague and requested more specific and timelier
       action regarding the time frame for acquiring new capital.

   •   On August 20, 2009, the FDIC notified Benchmark that it was Significantly
       Undercapitalized based on the June 30, 2009 Call Report data and advised the
       Board and management that on July 30, 2009, the bank had become subject to the
       mandatory requirements of section 38, including submission of a capital
       restoration plan and restrictions on asset growth, acquisitions, new activities, new
       branches, dividends, other capital distributions, and management fees. The FDIC
       required Benchmark’s management to file a new written capital restoration plan
       by September 21, 2009; however, Benchmark did not do so.


                                            13
     •   On September 25, 2009, the FDIC notified Benchmark that it was Critically
         Undercapitalized based on the results of the August 10, 2009 examination (which
         used June 30, 2009 financial information) and that, as of September 24, 2009,
         Benchmark was subject to the mandatory requirements of section 38, including
         submission of a capital restoration plan and restrictions on asset growth,
         acquisitions, new activities, new branches, payment of dividends, making other
         capital distributions, and paying management fees or senior executive
         compensation. The FDIC also informed the Board that the FDIC would be
         required to place Benchmark in receivership on December 23, 2009, unless it was
         determined that a different action would better carry out the purposes of section
         38.

On October 29, 2008, Benchmark applied for funds under the Troubled Asset Relief
Program (TARP).14 Benchmark subsequently withdrew its application on
April 9, 2009. On December 4, 2009, the IDFPR closed Benchmark due to its
insolvency.

Supervisory Lessons Learned

According to the DSC Risk Management Manual of Examination Policies (Examination
Manual), the quality of an institution‘s management, including its Board of Directors and
executive officers, is perhaps the single most important element in the successful
operation of a bank. The Board has overall responsibility and authority for formulating
sound policies and objectives for the bank and for effectively supervising the institution’s
affairs. The Examination Manual further states that:

          …to effectively prevent serious problems in an institution, the conditions and
         circumstances that may lead to problems must be identified and corrected early.
         Corrective action should be taken immediately upon identifying excessive risk
         taking…when corrective action is not taken until conditions have deteriorated it is
         often too late to avoid failure. Moral suasion and informal agreements are
         normally sufficient where the unacceptable risk-taking is identified early, but
         formal action must be considered, even when an institution is rated 1 or 2, if
         circumstances warrant.

In hindsight, Benchmark’s pursuit of growth centered in CRE and ADC lending may
have warranted greater supervisory concern. As discussed earlier, the risks associated
with the Board’s growth and funding strategy and weak credit administration and loan
underwriting practices became apparent at the 2008 and 2009 examinations as the
economy declined. In that regard, earlier and stronger supervisory action at the 2004,
2007, and 2008 examinations may have been more effective in obtaining management’s

14
  TARP was established under the Emergency Economic Stabilization Act of 2008. The Act established
the Office of Financial Stability within the United States Department of the Treasury (Treasury). Under
TARP, Treasury will purchase up to $250 billion of senior preferred shares from qualifying institutions as
part of the Capital Purchase Program.


                                                    14
commitment and follow-through to address deficiencies identified by examiners and
mitigate the associated risks. Such actions may have involved earlier component and
composite rating downgrades, additional offsite monitoring, and an MOU or C&D
instead of a BBR at the 2008 examination.

The FDIC has taken steps to increase supervisory attention to banks that have risk
profiles similar to Benchmark. On January 26, 2010, the FDIC issued guidance to its
examiners that defines procedures for better ensuring that examiner concerns and
recommendations are appropriately tracked and addressed.15 Specifically, the guidance
defines a standard approach for communicating matters requiring Board attention (e.g.,
examiner concerns and recommendations) in examination reports. The guidance also
states that examination staff should request a response from the institution regarding the
actions that it will take to mitigate the risks identified during the examination and correct
noted deficiencies.

Finally, the FDIC recently completed a training initiative for its entire supervisory
workforce that emphasizes the need to assess a bank’s risk profile using forward-looking
supervision. The training addressed the need for examiners to consider management
practices as well as the financial institution’s current financial performance or trends in
assigning ratings as allowable under existing examination guidance.

Corporation Comments
We issued a draft of this report on May 17, 2010. DSC management subsequently
provided us with additional information for our consideration. We made changes to our
report based on this information, as appropriate. On June 14, 2010, the Director, DSC,
provided a written response to the draft report dated June 11, 2010. The response is
presented in its entirety as Appendix 4 of the report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of s failure
and cited several supervisory activities, discussed in the report, that were undertaken to
address risks at the institution prior to its failure. With regard to our assessment of the
FDIC’s supervision, DSC stated that strong supervisory attention is necessary for
institutions with high CRE and ADC concentrations. In addition, DSC stated that its
updated guidance re-emphasizes the importance of robust credit risk-management
practices for institutions with concentrated CRE exposures and setting forth broad
supervisory expectations. DSC also stated that examination procedures have been
implemented to ensure that material issues and recommendations needing immediate
consideration by the institution’s Board are appropriately tracked and addressed.




15
  DSC Regional Directors Memorandum entitled, Matters Requiring Board Attention (Transmittal No.
2010-003).


                                                15
                                                                               Appendix 1

                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if the Deposit Insurance Fund incurs a material loss with respect
to an insured depository institution, the Inspector General of the appropriate federal
banking agency shall prepare a report to that agency reviewing the agency’s supervision
of the institution. The FDI Act requires that the report be completed within 6 months
after it becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from March 2010 to May 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Benchmark’s operations from 2004 until
its failure on December 4, 2009. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

     •   Analyzed examination reports prepared by FDIC and IDFPR examiners from
         2004 to 2009.

     •   Reviewed the following:

           •   Bank data contained in UBPRs.

           •   Correspondence files from DSC’s Chicago Regional and Chicago Field
               Offices.

           •   Select examination workpapers related to loans, investments, and Board and
               management activities.

           •   Reports prepared by the Division of Resolutions and Receiverships and DSC
               relating to the bank’s closure.


                                             16
                                                                             Appendix 1

                     Objectives, Scope, and Methodology


           •   Pertinent DSC policies and procedures and various banking laws and
               regulations.

     •   DSC’s ViSION Modules, including Supervisory Tracking & Reporting.

     •   Reports from the bank’s external auditor.

We also interviewed FDIC examiners who participated in the various examinations of
Benchmark and an FDIC Regional Office official responsible for supervisory oversight.

We performed the audit work at the OIG offices in Arlington, Virginia.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand Benchmark’s management controls pertaining
to causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that was used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                             17
                                                                                  Appendix 2

                               Glossary of Terms


Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease      the book value of loans and leases to the amount that is expected to be
Losses (ALLL)       collected. It is established in recognition that some loans in the
                    institution’s overall loan and lease portfolio will not be repaid. Boards
                    of directors are responsible for ensuring that their institutions have
                    controls in place to consistently determine the allowance in accordance
                    with the institutions' stated policies and procedures, generally accepted
                    accounting principles, and supervisory guidance.
Bank Board          A Bank Board Resolution is an informal commitment adopted by a
Resolution (BBR)    financial institution’s Board of Directors (often at the request of the
                    FDIC) directing the institution’s personnel to take corrective action
                    regarding specific noted deficiencies. A BBR may also be used as a tool
                    to strengthen and monitor the institution’s progress with regard to a
                    particular component rating or activity.
Call Report         The report filed by a bank pursuant to 12 United States Code (U.S.C.)
                    1817(a)(1), which requires each insured State nonmember bank and each
                    foreign bank having an insured branch which is not a Federal branch to
                    make to the Corporation reports of condition in a form that shall contain
                    such information as the Board of Directors may require. These reports
                    are used to calculate deposit insurance assessments and monitor the
                    condition, performance, and risk profile of individual banks and the
                    banking industry.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern but which have not deteriorated to the point
(MOU)               where they warrant formal administrative action. As a general rule, this
                    action is to be considered for all institutions rated a composite “3.”




                                             18
                                                                                 Appendix 2

                               Glossary of Terms


Term                Definition
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the Deposit Insurance
(PCA)               Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code
                    of Federal Regulations, section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 United States Code
                    section 1831(o), by establishing a framework for determining capital
                    adequacy and taking supervisory actions against depository institutions
                    that are in an unsafe or unsound condition. The following terms are used
                    to describe capital adequacy: (1) Well Capitalized, (2) Adequately
                    Capitalized, (3) Undercapitalized, (4) Significantly Undercapitalized,
                    and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action or compliance with the PCA statute with respect to an institution
                    that falls within any of the three categories of undercapitalized
                    institutions.
Tier 1 (Core)       In general, this term is defined in Part 325 of the FDIC Rules and
Capital             Regulations, 12 C.F.R. section 325.2(v), as
                    The sum of:
                    • Common stockholder’s equity (common stock and related surplus,
                    undivided profits, disclosed capital reserves, foreign currency translation
                    adjustments, less net unrealized losses on available-for-sale securities
                    with readily determinable market values);
                    • Non-cumulative perpetual preferred stock; and
                    • Minority interest in consolidated subsidiaries;
                    Minus:
                    • Certain intangible assets;
                    • Identified losses;
                    • Investments in financial subsidiaries subject to section 12 C.F.R.
                      part 362; and
                    • Deferred tax assets in excess of the limit set forth in section 325.5(g).


Troubled Asset      TARP is a program of the United States Department of the Treasury to
Relief Program      purchase assets and equity from financial institutions to strengthen the
(TARP)              financial sector.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from data
                    reported in Reports of Condition and Income submitted by banks.




                                            19
                                                              Appendix 3

                         Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CD       Certificate of Deposit
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FIL      Financial Institution Letter
GAAP     Generally Accepted Accounting Principles
GMS      Growth Monitoring System
IDFPR    Illinois Department of Financial and Professional Regulation
MOU      Memorandum of Understanding
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
SCOR     Statistical CAMELS Offsite Rating
TARP     Troubled Asset Relief Program
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System
ViSION   Virtual Supervisory Information on the Net




                               20
                                                                                     Appendix 4
                                    Corporation Comments



Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                        June 11, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of
                 Benchmark Bank, Aurora, Illinois (Assignment No. 2010-029)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Benchmark
Bank (Benchmark), Aurora, Illinois, which failed on December 4, 2009. This memorandum is
the response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on May 17, 2010.

Benchmark failed because the Board of Directors and management pursued a growth strategy
focused on commercial real estate (CRE) and acquisition, development, and construction (ADC)
lending without establishing adequate risk management policies and practices. These weak risk
management practices, in conjunction with the CRE/ADC concentrations, left Benchmark
vulnerable to the sudden decline in the Chicago area real estate market. Significant losses in the
loan portfolio ultimately depleted earnings and eroded capital.

The FDIC, in coordination with the Illinois Department of Financial and Professional Regulation
(IDFPR), jointly and separately conducted five full-scope examinations, one visitation, and two
offsite reviews from 2004 through 2009. The Report acknowledges that as early as 2004,
examiners identified key risks including Benchmark’s CRE/ADC concentrations as well as weak
underwriting and credit administration practices. The IDFPR and the FDIC downgraded
Benchmark’s ratings in 2008 and 2009 and pursued informal and subsequent formal enforcement
actions to correct identified problems.

DSC recognizes that strong supervisory attention is necessary for institutions with high CRE and
ADC concentrations. DSC has updated guidance re-emphasizing the importance of robust credit
risk management practices for institutions with concentrated CRE exposures and setting forth
broad supervisory expectations. In addition, examination procedures have been implemented to
ensure that material issues and recommendations needing immediate consideration by the
institution’s Board of Directors are appropriately tracked and addressed.

Thank you for the opportunity to review and comment on the Report.




                                                    21
